No. 20-1775
IN THE
SUPREME COURT OF THE UNITED STATES
THE STATE OF ARIZONA, ET AL.,
v.

Petitioners,

CITY AND COUNTY OF SAN FRANCISCO, ET AL.,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
CERTIFICATE OF COMPLIANCE

Dennis J. Herrera
San Francisco City Attorney
Jesse C. Smith
Ronald P. Flynn
Yvonne R. Meré
Sara J. Eisenberg
Counsel of Record
Deputy City Attorneys
City Attorney’s Office
City Hall Room 234
One Dr. Carlton B. Goodlett Pl.
San Francisco, CA 94102
Telephone: (415) 554-4633
Sara.Eisenberg@sfcityatty.org

James R. Williams
County Counsel,
County of Santa Clara
Greta S. Hansen
Laura Trice
Raphael N. Rajendra
Julia B. Spiegel
H. Luke Edwards
Hannah Kieschnick
Deputy County Counsels
70 West Hedding Street
East Wing, Ninth Floor
San Jose, CA 95110-1770
Telephone: (408) 299-5900

Attorneys for Respondent
City and County of San Francisco

Attorneys for Respondent
County of Santa Clara

As required by Supreme Court Rule 33, I certify that the CITY AND COUNTY SAN
FRANCISCO AND COUNTY OF SANTA CLARA’S BRIEF IN OPPOSITION
contains 1 page (65 words), excluding the parts of the document that are exempted
by Supreme Court Rule 33.1(d).

Executed on August 23, 2021

Respectfully submitted,
Dennis J. Herrera
San Francisco City Attorney
by: /s/ Sara J. Eisenberg
Sara J. Eisenberg

